TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Data Center Consolidation Initiative
                     Has Made Significant Progress, but
                  Program Management Should Be Improved
                     to Ensure That Goals Are Achieved



                                           June 10, 2013

                              Reference Number: 2013-20-013




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


THE DATA CENTER CONSOLIDATION                        addresses challenges and details decisions,
INITIATIVE HAS MADE SIGNIFICANT                      milestones, and time frames related to how the
PROGRESS, BUT PROGRAM                                IRS will meet its data center consolidation goals.
MANAGEMENT SHOULD BE IMPROVED                        In addition, the IRS has not identified the optimal
                                                     footprint for its data centers. TIGTA observed
TO ENSURE THAT GOALS ARE
                                                     significant empty space at the IRS’s Enterprise
ACHIEVED                                             Computing Center in Detroit, Michigan. TIGTA
                                                     was informed by IRS management that the

Highlights                                           IRS’s lease for this space will expire in
                                                     April 2015 and that the systems at this location
                                                     could be moved to other IRS data centers.
Final Report issued on June 10, 2013                 During our audit, the IRS announced plans to
                                                     close the Enterprise Computing Center in
Highlights of Reference Number: 2013-20-013          Detroit, estimating the IRS will save
to the Internal Revenue Service Chief                approximately $15 million annually.
Technology Officer.
                                                     Further, the IRS’s DCCI does not include all of
IMPACT ON TAXPAYERS                                  its data centers that meet the standard Federal
                                                     definition of a data center within its baseline
In February 2010, the Office of Management
                                                     inventory. The IRS has an additional 115,343
and Budget established the Federal Data Center
                                                     square feet of data center space in 61 buildings.
Consolidation Initiative mandating that Federal
agencies reduce costs and save energy by             WHAT TIGTA RECOMMENDED
reducing the number of Federal data centers.
Decreasing redundant or unnecessary data             TIGTA recommended that the Chief Technology
centers, as well as reducing operational costs       Officer provide, as appropriate, additional
and energy consumption, is a significant part of     resources to the DCCI PMO, require the PMO to
Federal efforts to reduce costs and make more        develop a project management plan that
efficient use of taxpayer funds.                     addresses challenges to accomplishing project
                                                     goals and solutions, and ensure that the
WHY TIGTA DID THE AUDIT                              Enterprise Computing Center in Detroit is
                                                     consolidated into the Martinsburg and Memphis
In response to the Office of Management and
                                                     Enterprise Computing Centers.
Budget mandate, the IRS established a Data
Center Consolidation Initiative (DCCI) Program       TIGTA also recommended that the Chief
Management Office (PMO) in 2010 and set a            Technology Officer work with the Real Estate
goal to reduce its data center space by              and Facilities Management organization to
50 percent by the end of Fiscal Year 2015.           correct the inventory, update the inventory
TIGTA initiated this audit to determine whether      submitted to the Department of the Treasury,
the IRS’s DCCI would effectively reduce data         formalize plans to develop and apply a baseline
center space and increase energy efficiency.         footprint to the IRS’s small data centers, and
                                                     coordinate with the Chief, Agency-Wide Shared
WHAT TIGTA FOUND                                     Services, to shut down computer room air
While the IRS has exceeded its first two years’      conditioners no longer needed and adjust the
goals for reducing data center space and             set point temperature, as appropriate, on the
improving the energy efficiency of its data          remaining computer room air conditioners in
centers, management of the DCCI needs to be          accordance with industry best practices.
improved to ensure that the IRS meets its future     In their response to the report, IRS management
DCCI goals. Two years of the IRS’s five-year         agreed with seven of the report
DCCI have elapsed without a clear plan for how       recommendations and partially agreed with one
the data center space reduction goals will be        recommendation. The IRS has taken or plans to
accomplished. The IRS’s DCCI PMO has not             take appropriate corrective actions in response
formalized a project management plan that            to all of the report recommendations.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            June 10, 2013


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Data Center Consolidation Initiative Has
                             Made Significant Progress, but Program Management Should Be
                             Improved to Ensure That Goals Are Achieved (Audit # 201220021)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Data
 Center Consolidation Project. The overall objective of this review was to determine whether the
 IRS’s Data Center Consolidation Initiative would effectively reduce data center space and
 increase energy efficiency. This review is included in our Fiscal Year 2013 Annual Audit Plan
 and addresses the major management challenge of Achieving Program Efficiencies and Cost
 Savings.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Alan R. Duncan, Assistant
 Inspector General for Audit (Security and Information Technology Services).
                               The Data Center Consolidation Initiative Has Made
                             Significant Progress, but Program Management Should
                                Be Improved to Ensure That Goals Are Achieved




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Data Center Consolidation Initiative Program Management Office
          Has Made Significant Progress in Reducing Data Center Space and
          Improving Energy Efficiency, but Lacks a Clear Plan for
          Accomplishing Its Goals ............................................................................... Page 3
                    Recommendations 1 through 3:......................................... Page 7

          The Internal Revenue Service’s Data Center Consolidation Initiative
          Does Not Include All Data Centers .............................................................. Page 7
                    Recommendations 4 through 7:......................................... Page 10

                    Recommendation 8:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Outcome Measure ................................................................ Page 16
          Appendix V – Glossary of Terms ................................................................. Page 18
          Appendix VI – Management’s Response to the Draft Report ...................... Page 19
          The Data Center Consolidation Initiative Has Made
        Significant Progress, but Program Management Should
           Be Improved to Ensure That Goals Are Achieved




                   Abbreviations

CIO          Chief Information Officer
CTO          Chief Technology Officer
DCCI         Data Center Consolidation Initiative
ECC          Enterprise Computing Center
FDCCI        Federal Data Center Consolidation Initiative
FY           Fiscal Year
IRS          Internal Revenue Service
IT           Information Technology
OMB          Office of Management and Budget
PMO          Program Management Office
TIGTA        Treasury Inspector General for Tax Administration
                             The Data Center Consolidation Initiative Has Made
                           Significant Progress, but Program Management Should
                              Be Improved to Ensure That Goals Are Achieved




                                              Background

In February 2010, the Office of Management and Budget (OMB) established the Federal Data
Center Consolidation Initiative (FDCCI) as a Governmentwide initiative designed to reduce the
energy and real estate footprint of Federal data centers while increasing efficiency, strengthening
the overall Government security posture, and promoting Green Information Technology1 by
reducing the total number of Federal data centers. The FDCCI guidance required agencies to
inventory their data center assets, develop consolidation plans, and integrate those plans into
agency Fiscal Year (FY) 2012 budget submissions. The FDCCI would reduce the number of
data centers across the Government and assist agencies in applying best practices from the public
and private sector, with goals to:
          Promote the use of Green Information Technology by reducing the overall energy and
           real estate footprint of Government data centers.
          Reduce the cost of data center hardware, software, and operations.
          Increase the overall information technology security posture of the Government.
          Shift information technology investments to more efficient computing platforms and
           technologies.
The OMB provided updated guidance in July 2011. This guidance required agencies and all
subordinate organizations to complete all missing elements of their respective consolidation
plans and submit them to the General Services Administration. The plans were required to
include a full master plan schedule which identifies, by quarter, the data centers to be closed
through FY 2015. The plans were also to reflect challenges experienced to date and integrate
lessons learned.
In response to the OMB directive to consolidate Federal data centers, the Department of the
Treasury and its bureaus, including the Internal Revenue Service (IRS), developed data center
consolidation plans. In October 2010, the IRS created the Data Center Consolidation Initiative
(DCCI) Program Management Office (PMO). The IRS’s DCCI goal is to reduce its data center
space by 50 percent, 10 percent per year, from FY 2011 through FY 2015. The IRS also has a
goal to reduce the number of data centers from 15 primary data centers to eight by the end of
FY 2015. The IRS’s DCCI plan states that the approach is to centralize, virtualize, and
decommission server resources to meet the following goals: consolidate the governance of all
servers, reduce the IRS’s data center footprint, enhance the IRS’s disaster recovery capabilities,


1
    See Appendix V for a glossary of terms.
                                                                                             Page 1
                          The Data Center Consolidation Initiative Has Made
                        Significant Progress, but Program Management Should
                           Be Improved to Ensure That Goals Are Achieved



and streamline the IRS’s processes to reach a more mature level of the Information Technology
Infrastructure Library®.
There are currently three bills in Congress with potential legislation that may affect the FDCCI.
Two of the three bills would specifically require agencies to submit complete data center
consolidation plans to the OMB.2
This review was performed at the IRS Enterprise Computing Centers (ECC) in
Detroit, Michigan; Memphis, Tennessee; and Martinsburg, West Virginia, and the IRS data
centers in Atlanta, Georgia; St. Louis, Missouri; New York, New York; Oklahoma City,
Oklahoma; and Dallas, Texas, during the period June through November 2012. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




2
 Data Center Optimization Act, H.R. 6278, 112th Cong. (2011–2012); Smart Energy Act, H.R. 4017, 112th Cong.
(2011–2012); and Federal Cost Reduction Act of 2011, H.R. 1713, 112th Cong. (2011–2012).
                                                                                                     Page 2
                        The Data Center Consolidation Initiative Has Made
                      Significant Progress, but Program Management Should
                         Be Improved to Ensure That Goals Are Achieved




                                 Results of Review

The Data Center Consolidation Initiative Program Management Office
Has Made Significant Progress in Reducing Data Center Space and
Improving Energy Efficiency, but Lacks a Clear Plan for
Accomplishing Its Goals
The IRS’s Chief Technology Officer (CTO) set a DCCI goal for the IRS to reduce its baseline
data center space (reported at approximately 392,000 square feet) by 50 percent (or
approximately 196,000 square feet) by the end of FY 2015. The PMO plans to meet the goal by
reducing the footprint by 10 percent, or approximately 39,000 square feet, annually during
FYs 2011 through 2015. The OMB did not set data center space savings goals or requirements
for Federal agencies. Similarly, the Department of the Treasury did not set specific DCCI goals
for its bureaus.
Project management best practices have established that a project management plan is a key
project planning document. The project management plan documents planning assumptions and
decisions for the project and provides a framework for managing project activities and for
completing the project successfully. The objective of a project management plan is to define the
scope of work to be accomplished and the approach to be used by the project team to deliver the
solution. In September 2010, the IRS submitted its DCCI plan to the Department of the
Treasury. The plan stated that a project management discipline will be applied to the effort,
including development of a comprehensive master program schedule, detailed implementation
schedules, and spending plans.
While the IRS has exceeded its goals in the first two years for reducing data center space and
improving the energy efficiency of its data centers, management of the project needs to be
improved to ensure that the IRS meets its DCCI goals by the end of FY 2015. Two years of the
IRS’s five-year DCCI have elapsed without a clear plan for how the data center space reduction
goals will be accomplished. In addition, challenges remain that, if not addressed in a formal
plan, could result in the IRS not meeting its future DCCI goals.

Significant progress has been made in the first two years of the DCCI
The IRS’s DCCI PMO, in partnership with the IRS’s Real Estate and Facilities Management
organization, has exceeded its first two years’ goals in reducing the IRS’s data center footprint
and improving data center energy efficiency. As a result of consolidation efforts, by the end of
FY 2012 (the second year of the five-year project) the IRS had closed two data centers and
successfully reduced 76,560 square feet of the baseline data center square footage at five other

                                                                                            Page 3
                           The Data Center Consolidation Initiative Has Made
                         Significant Progress, but Program Management Should
                            Be Improved to Ensure That Goals Are Achieved



data centers. In doing so, the IRS has exceeded its plan of reducing 10 percent per year of the
baseline square footage for the first two years of the five-year project period. The IRS has
worked with the Department of the Treasury and made progress in relocating Department of the
Treasury systems into the IRS’s data center space.
The IRS has also taken steps to improve the energy efficiency of its data centers. These steps,
taken in response to a prior Treasury Inspector General for Tax Administration (TIGTA) audit
report,3 include implementing “hot” and “cold” aisles for servers, installing motion sensors to
control overhead lighting, and shutting down redundant computer room air conditioners.
The IRS is in the process of installing power metering in two data centers located in
Kansas City, Missouri, and Memphis, Tennessee. This will enable the IRS to determine the
exact amount of electricity used in these data centers. Currently, the IRS is only able to estimate
the power usage of its data centers. Following implementation of metering at these locations, the
IRS will assess the costs, benefits, and efforts required to install metering and determine whether
metering will be recommended for other IRS data centers.

A project management plan has not been developed
The DCCI PMO prepared an operating charter that established the PMO and set forth its
objectives, governance responsibilities, membership composition, and high-level operating
framework. While the DCCI PMO was formed in October 2010, the operating charter was not
developed until July 2012, nearly two years after the start of the DCCI PMO
A project management plan is needed to address challenges to accomplishing DCCI goals. The
IRS’s DCCI PMO has not formalized a project management plan that addresses challenges and
details decisions, milestones, and time frames related to how the IRS will meet its goal of
reducing data center space by approximately 196,000 square feet by the end of FY 2015. The
IRS uses quarterly CTO briefing document presentations for managing the DCCI. Specific plans
are developed for each local site as the IRS begins to address specific campuses, computing
centers, or other site locations.
In addition, while the IRS can perform DCCI planning and analysis work during the filing
season, it cannot make any major information technology production environment changes or
relocate hardware.4 This further shortens the time frame and provides additional challenges
which the IRS has to address in the next three fiscal years to accomplish its DCCI goals.




3
  TIGTA, Ref. No. 2010-20-044, Implementing Best Practices and Additional Controls Can Improve Data Center
Energy Efficiency and the Environmental and Energy Program (May 2010).
4
  Every year the Production Environment Control Process (formerly known as the Filing Season Moratorium) is put
into place at the IRS to stabilize its production environments during peak processing times. During this time, no
changes to the production environment are allowed to be implemented without executive approval.
                                                                                                          Page 4
                        The Data Center Consolidation Initiative Has Made
                      Significant Progress, but Program Management Should
                         Be Improved to Ensure That Goals Are Achieved



The IRS lacks a strategy for the ECCs
In a prior report, we recommended that current and future IRS data center space needs be
identified and plans developed to consolidate or reduce excess data center space. IRS
management agreed with this recommendation and stated that the Enterprise Operations
organization would take the lead in the process of assessing the current state of data center space
and developing a plan of action for space consolidation, where appropriate.
Two years after the start of the DCCI, the IRS has not identified the optimal footprint or
configuration for its ECCs. In August 2012, nearly two years after the start of the DCCI, the IRS
prepared a statement of work to engage a contractor to study the three ECCs and make
recommendations for how the IRS should create world-class data center facilities to meet its
current and future information technology needs.
We observed significant empty data center space at the ECC-Detroit. We were informed by IRS
management that the IRS’s lease for this space will expire in April 2015 and that the systems that
remain at this location could be moved to other IRS data centers. Based on this, it was our
opinion that the IRS should close the data center at the ECC-Detroit. In July 2012, during our
audit, the CTO announced the closure of the ECC-Detroit. The basis for this decision has not
been documented as part of a project management plan. In September 2011, a draft business
case was developed for the ECC-Detroit that assumed the data center would remain open. The
business case approach was then changed and replaced with a document, “Strategic Overview of
the ECCs and Their Role in Supporting the IRS Data Center Consolidation Initiative,” dated
November 2011. The strategic overview document also includes future plans for the
ECC-Detroit. The document states three computing centers are necessary to meet the IRS’s
information technology needs. In 2012, the DCCI PMO began to prepare a statement of work
for a contractor to study the ECCs and make recommendations on how the IRS can implement a
world-class data center organization. In August 2012, the draft statement of work was revised to
reflect the IRS’s plans to close the ECC-Detroit. The CTO estimates the IRS will save
approximately $15 million annually by closing the ECC-Detroit. We agree with this decision as
it is consistent with a prior TIGTA recommendation, and we have also raised this issue during
this audit. The IRS expects to receive the results of the contractor’s world-class data center
study in August 2013.
Closing the ECC-Detroit presents another issue not addressed in a project management plan.
The IRS’s telecommunications gateway infrastructure, BlackBerry enterprise servers, and e-mail
archiving are configured to be located in three sites. The systems are currently located at the
three ECC locations. With the closure of the ECC-Detroit, the IRS needs to identify and prepare
a third location to support these systems.
A decision has not been made on how the Annex building at the ECC-Martinsburg, a large space
of approximately 36,000 square feet, will contribute to the 195,000 square foot reduction in data
center space. This building contains the command center for the ECC-Martinsburg, the

                                                                                            Page 5
                        The Data Center Consolidation Initiative Has Made
                      Significant Progress, but Program Management Should
                         Be Improved to Ensure That Goals Are Achieved



Department of the Treasury’s continuity of operations equipment, and the IRS’s Research,
Analysis, and Statistics organization equipment. The DCCI managers informed us that there
may be adequate unused space within either of the two ECC-Martinsburg computer rooms to
accommodate these items and there may be a need for additional office space at the
ECC-Martinsburg. To complicate this decision, the Annex building is a privately owned
building leased by the IRS, whereas the ECC-Martinsburg facility is a Government-owned
building.
The DCCI PMO’s decision to reduce space at the ECC-Martinsburg and the ECC-Memphis
facilities was also not documented in a project management plan detailing how the space
reduction will be accomplished. The IRS briefing documents currently show that data center
space at the two computing centers will be reduced by 50,000 square feet. In addition, the
decision has been made without knowing the results of the data center study, which has not yet
been completed. One of the key focuses of the study is to project the future state of the IRS’s
data centers; it would be beneficial to await the results of the study prior to making a decision to
reduce space at the remaining computing centers. The DCCI PMO has indicated that the results
of the data center study will improve decisions at the Memphis and Martinsburg ECCs regarding
potential space reductions, space to be made available for other Department of the Treasury
bureaus, or conversion to office space.
The DCCI PMO program manager plans to turn over responsibility for implementing the
World Class Data Center Study recommendations to the ECC executives. The DCCI PMO
responsibilities related to the data center study should be included in a project management plan
and should require a continued role to ensure that the recommendations are implemented.
Without such a role, the ECC improvements may not be realized.
At the beginning of the project, the IRS’s Information Technology (IT) organization
management did not provide sufficient resources to the DCCI PMO for project planning and to
ensure that the team could efficiently identify the best way to accomplish the DCCI goals. The
program manager estimated that he is only able to devote 25 percent of his time to the DCCI. In
March 2012, 18 months after the start of the DCCI, the DCCI PMO did not have a full-time
senior project manager. The DCCI PMO informed the CTO that due to all the interconnected
activities affecting consolidation, virtualization, post-of-duty consolidation, and coordination
with the IT organization and local Real Estate and Facility Management organization staffs as
well as the business units, an additional full-time employee with project management expertise
was needed. During our fieldwork, the DCCI PMO received a full-time senior project manager
and an additional staff member to assist the senior project manager.
Significant challenges remain, including a strategy for the ECCs that have not been sufficiently
addressed in a project management plan. If not addressed, the IRS may not fully achieve its
DCCI goals by the end of FY 2015 as planned to reduce the real estate footprint and energy
consumption of its data centers.


                                                                                             Page 6
                       The Data Center Consolidation Initiative Has Made
                     Significant Progress, but Program Management Should
                        Be Improved to Ensure That Goals Are Achieved



Recommendations
To ensure that the IRS accomplishes its DCCI goals in the final three years, the CTO should:
Recommendation 1: Provide, as appropriate, additional resources to support the DCCI PMO
to ensure that the future project goals are accomplished and ensure that the DCCI PMO can
maintain a role in guiding the implementation of the World Class Data Center Study
recommendations.
       Management’s Response: The IRS agreed with this recommendation. In
       November 2012, the Associate Chief Information Officer (CIO), Enterprise Operations,
       added appropriate resources to the DCCI. The IRS took this action to ensure that project
       goals would be accomplished and to ensure that the DCCI PMO maintained a role in
       guiding the implementation of the World Class Data Center Study recommendations in
       the computing centers.
Recommendation 2: Require the DCCI PMO to develop a project management plan
following project management best practices. The plan should include the development of a
comprehensive master program schedule, detailed implementation schedules, and spending plans
and should address challenges to accomplishing project goals and solutions.
       Management’s Response: The IRS agreed with this recommendation. As a result of
       discussions during this audit, the IRS DCCI PMO consolidated the existing strategy and
       planning documents and began developing a master project plan that will address
       challenges, detail decisions, milestones, and time frames related to how the IRS will meet
       its remaining data center consolidation goals.
Recommendation 3: Ensure that the ECC-Detroit is consolidated into the Martinsburg and
Memphis ECCs.
       Management’s Response: The IRS partially agreed with this recommendation. The
       IRS responded that citing specific locations in the recommendation limits the IRS’s
       ability to make the best decision as to where to locate the ECC-Detroit computing assets.
       IRS management stated they will ensure that the ECC-Detroit computing assets are
       consolidated into an appropriate facility.

The Internal Revenue Service’s Data Center Consolidation Initiative
Does Not Include All Data Centers
At the start of the FDCCI in February 2010, the agencies’ data center inventories included a
diverse collection of facilities. As a result, in October 2010, the Federal CIO announced a
common baseline definition for a Federal Government data center, developed by the FDCCI
Task Force. The Task Force defined a data center as any room greater than 500 square feet in


                                                                                          Page 7
                            The Data Center Consolidation Initiative Has Made
                          Significant Progress, but Program Management Should
                             Be Improved to Ensure That Goals Are Achieved



area, devoted to data processing, and meeting a tier (I, II, III, or IV) classification defined by the
Uptime Institute.5
After more than a year of work under the FDCCI, the Task Force updated its standard data center
definition. In March 2012, the Federal CIO issued a memorandum formalizing an updated
definition of a data center. The memorandum states, “…a data center is now defined as a closet,
room, floor or building for the storage, management, and dissemination of data and information”
and “Under this revised definition, neither square footage nor the Uptime Institute tier
classifications are required to define a facility as a data center.” The memorandum also states,
“The Task Force has made it clear that facilities below 500 square feet in area that do not meet
an Uptime Institute classification also consume significant amounts of resources.” The Federal
CIO explained that expanding the scope of the FDCCI effort to include even the smallest spaces
will better assist agencies in locating inefficient information technology assets and consolidation
opportunities. Consolidation encompasses not just large facilities but also small server clusters
and wiring closets.
The IRS’s detailed DCCI plan, submitted to the Department of the Treasury in September 2010
and updated in June 2011, states that the IRS’s five-year plan for data center consolidation will
focus on locations hosting more than six computing assets, or roughly 124 IRS locations. The
plan also states that the IRS is committed to policies and practices that reduce the environmental
impact of IRS operations. The IRS has committed to such best practices as implementing
computer room air-conditioner temperature and humidity set points that are consistent with
industry best practices, and shutting down unnecessary computer room air conditioners, as
appropriate.
The IRS’s DCCI does not include all data centers that meet the standard Federal definition of a
data center within its baseline inventory. The IRS’s five-year DCCI is focused on achieving data
center space reduction goals at 17 locations, rather than 124 locations, as stated in the IRS’s
detailed DCCI plan. In its DCCI plan, submitted to and approved by the Department of the
Treasury in September 2010, the IRS identified 15 data centers as primary data center locations
in the data center baseline inventory (three ECCs, one Annex building at the ECC-Martinsburg,
nine campuses, and two Washington, D.C., area data centers). In June 2012, the IRS submitted
to the Department of the Treasury an updated baseline data center inventory of 17 data centers
(including the 15 data centers reported in September 2010 plus one Criminal Investigation data
center and one additional Washington, D.C., area data center). Given limited resources and time
to accomplish data center consolidation goals, the IRS’s CTO decided to limit the IRS’s focus to
the 17 selected data centers.
The IRS’s annual inventory updates submitted to the Department of the Treasury in FYs 2011
and 2012 did not include the data centers meeting the standard larger than 500-square-feet

5
 The Uptime Institute is an unbiased, third-party data center research, education, and consulting organization
focused on improving data center performance and efficiency through collaboration and innovation.
                                                                                                             Page 8
                        The Data Center Consolidation Initiative Has Made
                      Significant Progress, but Program Management Should
                         Be Improved to Ensure That Goals Are Achieved



definition of 2011 or the expanded 2012 definition that eliminated the square footage
requirement. In the February 2010 memorandum launching the start of the FDCCI, the OMB
required agencies to update their asset inventories annually by the end of the third quarter of each
fiscal year. The March 2012 memorandum reminded agencies of this requirement.
In addition to the 17 data centers included in the DCCI, the IRS has 115,343 square feet of data
center space in 61 buildings in 31 states, Washington, D.C., and Puerto Rico. These additional
data centers meet the OMB’s initial definition of any room greater than 500 square feet in area.
The IRS also has an additional 25,244 square feet of space in 122 rooms that meet the OMB’s
expanded definition that eliminates area as a requirement.
We visited eight data centers greater than 500 square feet and not included in the IRS’s DCCI,
which were located in five cities. The data centers ranged from 1,437 square feet to 8,399 square
feet and accounted for 33,825 (29 percent) of the additional 115,343 square feet not included in
the DCCI. Our review of the sites found that opportunities exist for space reduction and energy
savings at all sites visited. Specifically, we found:
      Computer room air conditioners were powered on and cooling rooms with little or no
       computer equipment.
      Set point temperatures on computer room air conditioners were not consistently set to
       save energy and lower energy costs, as the IRS recently did at its ECCs and campuses.
       There were a total of 28 computer room air conditioners at the eight data centers we
       visited. Temperatures for 21 of the 28 units were set lower than 72 degrees, ranging from
       68 to 71 degrees. Only seven units at one location were set at 72 degrees.
      The IRS data center inventory is not accurate. For example, a room at one location was
       not in the inventory, while the inventory at another location included a room that no
       longer exists. One large computer room was listed as three separate smaller rooms in the
       inventory.
During our audit, the DCCI PMO informed us that it had been asked by senior IT organization
management to study such smaller data centers to identify consolidation and energy savings
opportunities and that they plan to develop standard footprints for small data centers.
The IRS’s DCCI PMO also informed us that data center consolidation for the smaller data
centers not included in the DCCI are being addressed as building leases expire and also based on
the Real Estate and Facilities Management organization move or renovation projects currently
taking place. Building leases for 38 (62 percent) of the 61 buildings that house 79,380 square
feet of data center space will expire before the FY 2015 DCCI end date. Building leases for 23
(38 percent) of the 61 buildings housing 35,963 square feet will expire after the DCCI end date.
When the IRS’s data center inventory does not include all of its data centers, the Department of
the Treasury cannot provide an accurate data center inventory to the OMB. In turn, the OMB
then does not have an accurate count of data centers within the scope of the FDCCI. In addition,
                                                                                             Page 9
                        The Data Center Consolidation Initiative Has Made
                      Significant Progress, but Program Management Should
                         Be Improved to Ensure That Goals Are Achieved



if there are too many data centers (no matter their size) supporting the organization, they lead to
power inefficiencies and add unnecessary cost, taking resources that could be used for other IT
organization purposes. The IRS continues to incur energy costs at those locations where leases
will be renewed or where many years remain before lease expiration. We could not determine
the additional cost the IRS is incurring to continue operating the data centers not included in the
IRS’s DCCI. The IRS does not have metering technology in place to measure electric use at its
data centers. As a result, the IRS could not provide data center energy usage and cost
information.

Recommendations
To ensure the most energy and space-efficient data center configurations, the CTO should:
Recommendation 4: Work with the Real Estate and Facilities Management organization to
correct the inventory when the DCCI PMO identifies discrepancies during local site visits.
       Management’s Response: The IRS agreed with this recommendation. The
       Enterprise Operations organization will work with the Real Estate and Facilities
       Management organization within Agency-Wide Shared Services to develop a formal
       process to correct the data center inventory.
Recommendation 5: Formalize plans to develop and apply a baseline footprint to the IRS’s
small data centers.
       Management’s Response: The IRS agreed with this recommendation. The
       Enterprise Operations organization, in coordination with the Real Estate and Facilities
       Management organization, will develop a baseline footprint for the IRS’s small data
       centers. This footprint will be applied to future build out and/or space reduction projects
       in small data centers, where cost effective.
Recommendation 6: Update the annual inventory submitted to the Department of the
Treasury to include all data centers, regardless of size.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       update the annual inventory submitted to the Department of the Treasury to include all
       data centers.
To ensure the most efficient use of computer room air conditioners at the IRS’s data centers, the
CTO, in conjunction with the Chief, Agency-Wide Shared Services, should:
Recommendation 7: Identify and shut down computer room air conditioners no longer
needed.
       Management’s Response: The IRS agreed with this recommendation. The
       Enterprise Operations organization, in coordination with the Real Estate and Facilities

                                                                                            Page 10
                      The Data Center Consolidation Initiative Has Made
                    Significant Progress, but Program Management Should
                       Be Improved to Ensure That Goals Are Achieved



      Management organization, will formalize a process for identifying and shutting down
      computer room air conditioners that are no longer needed.
Recommendation 8: Adjust the set point temperatures as appropriate on the remaining
computer room air conditioners in accordance with industry best practices.
      Management’s Response: The IRS agreed with this recommendation. The
      Enterprise Operations organization, in coordination with the Real Estate and Facilities
      Management organization, will formalize a process for ensuring that computer room air
      conditioners are adjusted to industry standard air conditioner set point temperatures.




                                                                                       Page 11
                              The Data Center Consolidation Initiative Has Made
                            Significant Progress, but Program Management Should
                               Be Improved to Ensure That Goals Are Achieved



                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the IRS’s DCCI would effectively
reduce data center space and increase energy efficiency. To accomplish this objective, we:
I.         Identified all OMB and Department of the Treasury data center consolidation
           requirements and criteria, as well as industry best practices, which would be used to
           evaluate the IRS’s DCCI.
           A. Researched the Federal CIO website to identify and obtain OMB and Federal CIO
              FDCCI requirements and criteria.
           B. Researched the Department of the Treasury website to identify and obtain any DCCI
              requirements.
           C. Researched the Internet, including the Federal CIO website, to identify FDCCI best
              practices.
           D. Scheduled and summarized criteria and best practices.
II.        Determined if the IRS’s DCCI meets Federal requirements and includes appropriate
           governance, goals, and metrics to effectively achieve data center consolidation.
           A. Evaluated the governance and oversight of the IRS’s DCCI to determine if executives
              are sufficiently informed of the results.
           B. Determined if IRS data center consolidation plans are consistent with Department of
              the Treasury and OMB guidelines as well as industry best practices.
           C. Determined if goals have been established for the DCCI.
           D. Determined if the IRS has established metrics to monitor progress toward
              accomplishing DCCI goals.
           E. Determined if the IRS’s DCCI plans include all of its data centers, regardless of size,
              and assessed any related consolidation plans. We selected a judgmental1 sample of
              eight of 107 data centers, greater than 500 square feet, not included in the scope of the
              IRS’s DCCI. The sample selection was based on data center square footage and type
              of systems located at each data center. We chose a judgmental sample to include the



1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 12
                       The Data Center Consolidation Initiative Has Made
                     Significant Progress, but Program Management Should
                        Be Improved to Ensure That Goals Are Achieved



           largest of the data centers not included in the scope of the IRS’s DCCI as well as two
           data centers requested by DCCI PMO management.
       F. Determined if the IRS has considered multiple consolidation alternatives at the ECCs.
III.   Determined if the IRS’s DCCI plans include all costs, savings, funding, and return on
       investment considerations to effectively measure and accomplish DCCI goals.
       A. Determined if the IRS captures and tracks the costs of operating its data centers.
       B. Determined if the IRS can identify all costs associated with its DCCI plans and
          activities.
       C. Determined if the IRS has computed expected savings to be realized from its DCCI
          efforts.
       D. Determined if the IRS has calculated the return on investment for its DCCI.
       E. Determined if the DCCI plans address how the efforts will be funded.
IV.    Determined if the IRS’s DCCI plans are being effectively implemented to reduce data
       center space and reduce energy costs.
       A. Determined if the IRS has been using metrics to demonstrate its progress towards
          meeting DCCI goals.
       B. Determined if the IRS is using actual incurred cost data for tracking the effectiveness
          of its DCCI efforts.
       C. Identified DCCI savings achieved.
       D. Determined if the IRS is meeting its DCCI goals to reduce energy costs and
          consumption.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Enterprise Operations and Real Estate
and Facilities Management organizations’ plans, policies, and processes to manage, monitor, and
report on the status and progress of the IRS’s DCCI. We evaluated these controls by
interviewing the DCCI management, analyzing the DCCI documentation, and visiting selected
data centers.




                                                                                          Page 13
                      The Data Center Consolidation Initiative Has Made
                    Significant Progress, but Program Management Should
                       Be Improved to Ensure That Goals Are Achieved



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
John Ledford, Audit Manager
Joan Bonomi, Lead Auditor
Myron Gulley, Senior Auditor
Curtis Kirschner, Senior Auditor
Ryan Perry, Senior Auditor




                                                                                     Page 14
                      The Data Center Consolidation Initiative Has Made
                    Significant Progress, but Program Management Should
                       Be Improved to Ensure That Goals Are Achieved



                                                                       Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Director, Enterprise Computing Center OS:CTO:EO:EC
Director, Real Estate and Facilities Management OS:A:RE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                             Page 15
                          The Data Center Consolidation Initiative Has Made
                        Significant Progress, but Program Management Should
                           Be Improved to Ensure That Goals Are Achieved



                                                                                         Appendix IV

                                   Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress

Type and Value of Outcome Measure:
   Cost Savings – Funds Put to Better Use – Potential; $15 million per year; $60 million over a
    four-year period (see page 3).

Methodology Used to Measure the Reported Benefit:
In a prior audit report1 dated May 7, 2010, TIGTA recommended that current and future IRS data
center space needs be identified and plans developed to consolidate or reduce excess data center
space. IRS management agreed with this recommendation and stated that the Enterprise
Operations organization would take the lead in the process of assessing the current state of data
center space and developing a plan of action for space consolidation, where appropriate.
In meetings with IRS managers in March 2012 during the planning of this audit, we inquired
about the status and plans for the ECC-Detroit and were informed that no decision had been
made. During this audit, we observed significant empty data center space at the ECC-Detroit.
We were informed by IRS management that the IRS’s lease for this space will expire in
April 2015 and that the systems that remain at this location could be moved to other IRS data
centers. Therefore, it is our opinion that the IRS should close the data center at the ECC-Detroit.
In July 2012, during this audit, the IRS’s CTO announced the closure of the ECC-Detroit. Prior
to the announcement, all of the DCCI documentation indicated that the IRS would maintain a
data center at the ECC-Detroit. We believe the decision to close the ECC-Detroit was due, in
part, to this audit as well as the TIGTA’s prior report recommendation.
The IRS’s CTO estimates that the IRS will save approximately $15 million annually by closing
the ECC-Detroit. The $15 million estimated annual savings for the closing of the ECC-Detroit
was calculated in the following manner. Currently, the IRS occupies 484,000 square feet of
space in the Detroit facility, at a fully loaded rental rate of $53.23 per square foot. This equates
to approximately $25 million in annual costs. When the IRS ceases data center operations in
Detroit, the IRS will no longer require the facility to have Level 5 security, but rather a standard


1
 TIGTA, Ref. No. 2010-20-044, Implementing Best Practices and Additional Controls Can Improve Data Center
Energy Efficiency and the Environmental and Energy Program, p. 12 (May 2010).
                                                                                                   Page 16
                        The Data Center Consolidation Initiative Has Made
                      Significant Progress, but Program Management Should
                         Be Improved to Ensure That Goals Are Achieved



level, and will only require traditional office space. As a result, the IRS will seek to obtain a
rental agreement that is more commensurate with the current Detroit market rate of
approximately $29 per square foot for (non–data center) office space. In addition, after the data
center function leaves the facility, the IRS can eliminate the square footage currently needed for
this function and can right-size the office space as well; the estimated space required for the IRS
office function will be approximately 354,000 square feet. If the IRS is able to obtain a rental
rate approximating the $29 per square foot market rate and reduce the amount of space leased to
approximately 354,000 square feet, the new estimated annual costs would be approximately
$10 million, representing an estimated annual rent and operating cost savings of approximately
$15 million ($25 million in current costs minus $10 million in new estimated costs). While this
benefit will extend beyond one year for the IRS, we are conservatively estimating the savings
over four years.




                                                                                            Page 17
                      The Data Center Consolidation Initiative Has Made
                    Significant Progress, but Program Management Should
                       Be Improved to Ensure That Goals Are Achieved



                                                                              Appendix V

                           Glossary of Terms

Term                      Definition

Campus                    The data processing arm of the IRS. The campuses process paper
                          and electronic submissions, correct errors, and forward data to the
                          Computing Centers for analysis and posting to taxpayer accounts.
Consolidation             An approach to reducing data center space that involves moving
                          servers to a few selected data centers or moving small data centers
                          to larger centers.
Decommission              An approach to accomplishing data center consolidation that
                          involves turning off servers that are not being used or are used
                          infrequently.
Governance                A set of processes, guidelines, and policies that guide and affect
                          the direction of an organization’s behavior or assets.
Green Information         Optimal use of information and communication technology for
Technology                managing the environmental sustainability of enterprise
                          operations, as well as that of their products, services, and
                          resources, throughout their life cycles.
Information Technology    A set of practices for information technology service management
Infrastructure Library®   that focuses on aligning information technology services with the
                          needs of business. The Information Technology Infrastructure
                          Library® describes procedures, tasks, and checklists used by an
                          organization for establishing a minimum level of competency. It
                          allows the organization to establish a baseline from which it can
                          plan, implement, and measure. It is used to demonstrate
                          compliance and to measure improvement.
Virtualization            An approach that helps to accomplish data center consolidation. It
                          involves moving applications and data on several physical servers
                          onto a single virtual server.




                                                                                       Page 18
        The Data Center Consolidation Initiative Has Made
      Significant Progress, but Program Management Should
         Be Improved to Ensure That Goals Are Achieved



                                                 Appendix VI

Management’s Response to the Draft Report




                                                        Page 19
  The Data Center Consolidation Initiative Has Made
Significant Progress, but Program Management Should
   Be Improved to Ensure That Goals Are Achieved




                                                  Page 20
  The Data Center Consolidation Initiative Has Made
Significant Progress, but Program Management Should
   Be Improved to Ensure That Goals Are Achieved




                                                  Page 21
  The Data Center Consolidation Initiative Has Made
Significant Progress, but Program Management Should
   Be Improved to Ensure That Goals Are Achieved




                                                  Page 22
  The Data Center Consolidation Initiative Has Made
Significant Progress, but Program Management Should
   Be Improved to Ensure That Goals Are Achieved




                                                  Page 23
